     :/
,/


                                                               u.s. OFFICE OF PERSONNEL MANAGEMENT
                                                                           OFFICE.OF THE INSPECTOR GENERAL
                                                                                            OFFICE OF AUDITS




          Final Audit Report
          Subject:

                           AUDIT OF THE

                    AMERICAN FOREIGN SERVICE·      .
               .PROTECTIVE ASSOCIATION'S PHARMACY·

                  OPERATIONS AS .ADMINISTERED. BY

                   MEDCO HEALTH SOLUTIONS; INC.

                             2003 -'2007



                                                     Report No.              IH-02-00-08-039·


                                                     Date:                    September lQ, 2009




                                                                     --CAUTION-­
          This audit reporl has beeD distributed to Federal oflici::tls who arerespousible ror the lIdministrafiori ortbe audited program. This::tudi.l
          reporlmay contain proprielary data whicb is protec"ted .by Federal law (18 U.S.C.1905). TbcTI'Jore, while tbis audil report is available
          under the Freedom of.]uform::ttion Act.::tDd made anilabk to the public on lhe OIG webpage, caution needs to be exercised before
          releasing Ibe report to tbe general public ::ts it may contain proprietary information that was redacted from the publicly distributed coPy.
                         UNITED STATES OFFICE OF PERSONNEL MANAGEMENT

                                           Washington. DC 20415


   Office of the
Inspector General




                                         AUDIT REPORT





                             Federal Employees Health Benefits Program

                                        Pharmacy Operations

                                          Contract CS 1062

                            American Foreign Service Protective Association

                                            Plan Code 40



                                      Medco Health Solutions, Inc.

                                      Franklin Lakes, New Jersey




                    REPORT NO. IH-02-00-08-039                DATE: September 10, 2009




                                                           ~

                                                            Michael R. Esser
                                                            Assistant Inspector General
                                                              for Audits




        www.opm.gov                                                                       www.~saJobs.gov
                          UNITED STATES OFFICE OF PERSONNEL MANAGEMENT

                                             Washington, DC 20415



  Office of the
Inspector General




                                     EXECUTIVE SUMMARY




                              Federal Employees Health Benefits Program

                                         Pharmacy Operations

                                           Contract CS 1062

                             American Foreign Service Protective Association

                                             Plan Code 40



                                       Medco Health Solutions, Inc.

                                       Franklin Lakes, New Jersey





                    REPORT NO. IH-02-00-08-039                   DATE: September 10, 2009

       The Office of the Inspector General has completed a performance audit of the 2003 through 20P?
       American Foreign Service Protective Association's (AFSPA) phalmacy operations as
       administered by Medeo Health Solutions, Inc. (Medeo). The primary objective of the audit was
       to determine if Medeo complied with the regulations and requirements contained within its
       contract with AFSPA and Contract CS 1062 (between AFSPA and the Office of Personnel
       Management). The audit was conducted in Franklin Lakes, New Jersey, from December 1
       through December 3, 2008.

       The audit showed that the 2003 through 2007 AFSPA pharmacy operations were in compliance
       with the contracts.




         www.opm.goy                                                                       www.usajobS.goy
                                 CONTENTS
                                                     PAGE
        EXECUTIVE SUMMARY	                   ,   ~    i


  I.    INTRODUCTION AND BACKGROUND	                  I


 II.	   OBJECTIVES, SCOPE, AND METHODOLOGY            2


III.	   AUDIT RESULTS                                 4


IV.	    MAJOR CONTRIBUTORS TO THIS REPORT             5


        SCHEDULE A - CONTRACT CHARGES

                    I. INTRODUCTION AND BACKGROUND


INTRODUCTION


As authorized by the Inspector General Act of 1978, as amended, we conducted an audit ofthe
2003 through 2007 American Foreign Service Protective Association's (AFSPA) pharmacy
operations as administered by Medco Health Solutions, Inc. (Medco). The audit field work was
conducted at Medco's offices in Franklin Lakes, New Jersey, from December 1 through
December 3,2008. Additional audit work was completed at our Washington, D.C. office.

BACKGROUND

The Federal Employees Health Benefits Program (FEHBP) was established by the Federal
Employees Health Benefits (FEHB) Act (Public Law 86-382), enacted on September 28, 1959.
The FEHBP was created to provide health insurance benefits for federal employees, annuitants,
and dependents. The Office of Personnel Management's (OPM) Center for Retirement and
Insurance Services has overall responsibility for administration ofthe FEl-IBP. The provisions of
the FEHB Act are implemented by aPM through regulations, which are codified in Title 5,
Chapter 1, Part 890 of the Code of Federal Regulations (CFR). Health insurance coverage is
made available through contracts with various health insurance carriers that provide service
benefits, indemnity benefits, or comprehensive medical services.

AFSPA has entered into a government-wide contract (CS 1062) with aPM to provide a health
benefit plan authorized by the FEHB Act. AFSPA has contracted directly with Medco to
manage the delivery and financing of prescription drug benefits for AFSPA health benefit
purchasers.

This is our first audit of the AFSPA pharmacy benefit operations as administered by Medco
relating to claim payments.




                                               1

                II. OBJECTIVES, SCOPE, AND METHODOLOGY


OBJECTIVES

The objectives of our audit were to determine whether Medco's charges to the FEHBP and
services provided toFEHBP members, relative to benefit payments, Were in accordance with the
terms of the contracts.

SCOPE

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on the audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusionS based on the audit objectives.

We reviewed the AFSPA claim tapes as provided by Medco for contract years 2003 through
2007. During this period, AFSPA paid approximately $104 million in phannacy drug charges
(see Schedule A).

In planning and conducting our audit, we obtained an understanding ofMedco's internal control
structure to help determine the nature, timing, and extent of our auditing procedures. This was
deternlined to be the most effective approach to select areas for audit. For those areas selected,
we primarily relied on substantive tests of transactions and not tests of controls. Based on our .
testing, we did riot identify any significant matters involving Medco's internal control structure
and its operation. However, since our audit would not necessarily disclose all significant matters
in the internal control structure, we do not express an opinionoD Medco's system ofintemal
controls taken as a whole.

In c6ilducting the audit we relied to varying degrees on computer-generated data provided by
Medco. Due to time constraints, we did not verify the reliability of the data generated by the
various information systems involved. However, while utilizing the computer-generated data
during audit testing, nothing came to our attention to doubt its reliability. We believe that the
data was sufficient to achieve the audit objectives.

 We also conducted tests to determine whether Medco had complied with the contract, the
 applicable procurement regulations (i.e., Federal Acquisition Regulations and Federal Employees
 Health Benefits Acquisition Regulations, as appropriate), and the laws and regulations governing
.the FEHBP. The results of our tests indicate that, with respect to the items tested, Medco
 complied with all provisions of the contract and the federal procurement regulations.




                                                 2

METHODOLOGY
To test Medea's compliance with the contracts regarding claim payments, we reviewed the
following samples of pharmacy claims adjudicated by Medco and billed from July 1, 2006
tluough December 31, 2007:

    •	 We randomly selected 25 mail order claim lines for review, totaling $12,784, which had
        indicators showing that either the physician or patient requested the prescription to be
        dispensed as written (DAW) (i.e., brand name dispensed with no option for generic
        substitution). This sample was selected from a universe of 546,112 claim lines totaling
        $47,147,196. Specifically, we reviewed 15 mail order claims with DAW code 1 (DAW
        requested by physician) and 10 mail order claims with DAW code 2 (DAW requested by
      . patient).

    •	 To determine ifmail order specialty drugs (specialty drugs are prescription medications
       that require special handling, administration, or monitoring) were properly adjudicated,
       we judgmentally selected 25 specialty mail order claim lines for review, totaling
       $100,187 (from a universe of 582 claim lines totaling $2,212,318). These claims were
       selected from Medco's specialty only Accredo mail order phannacy.

    •	 We judgmentally selected 100 mail order claim lines for review, totaling $94,607, to
       determine if the claims were adjudicated correctly. This sample was selected from a
       universe of the top 100 mail order drug claims paid from 2003 through 2007, with
       183,395 claim lines totaling $45,544,840. Specifically, we judgmentally selected the top
       10 mail order drugs (by highest amount paid) in 2003 through 2007 and randomly
       selected 10 claims from each drug (for a total of 100 claim lines).

    •	 To determine if retail drug claims were properly adjudicated, we judgmentally selected
       150 retail claim lines for review, totaling $59,658 (from a universe of the top 100 retail
       pharmacies paid from 2003 through 2007; 250,610 claim lines totaling $10,213,005).
       Specifically, our sample was made up of the following two selections:
               o	 We judgmentally selected the top 5 retail phmmacies (by highest amount
                   paid) and randomly selected 25 claim lines from each pharmacy (for a total of
                   125 claim lines, totaling $42,314).
               o	 We judgmentally selected 8 retail phmmacies which had 1,000 or fewer claim
                   lines and randomly selected 25 claim lines, totaling $17,344, from this
                   UnIverse.

The above samples that were selected and reviewed in perfonning the audit were not entirely
statistically based. Consequently, the results could not be projected to the universe since it is
unlikely that the results are representative of the universe taken as a whole. We used the
Contract CS 1062 and the contract between Medco and AFSPA to determine if the phannacy
benefits charged to the FEHBP were in compliance with the tenns of the contracts.




                                                  3

                                III. AUDIT RESULTS


Based on our review of claim payments we found that the AFSPA pharmacy operations for 2003

through 2007, as administered by Medco, were administered in accordance with the contracts.





                                             4

             IV. MAJOR CONTRIBUTORS TO'THIS REPORT


Special Audits Group

                Auditor



                 Senior Team Leader

                  Group Chief,




                                      5

                                                                                                      SCHEDULE A


                                             AUDIT OF THE

                          AMERICAN FOREIGN SERVICE PROTECTIVE ASSOCIATION'S

                                        PHARMACY OPERAnONS

                             AS ADMINISTERED BY MEDCO HEALTH SOLUTIONS

                                          FRANKLIN LAKES, NJ


                                          CONTRACT CHARGES

                                      REPORT NUMBER: 1H-02-00-08-039


CONTRACT CHARGES                  2003          2004          2005          2006          2007             TOTAL

A. PHARMACY BENEFIT PAYMENTS    $16.405,009   $19,801,896   $21,132.150   $23,178,060   $23,969,137     $104,486,252
